OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/SOUTH SUDAN’S
CORE INSTITUTIONAL
STRUCTURES PROJECT
AUDIT REPORT NO. 4-668-13-008-P
JULY 11, 2013




PRETORIA, SOUTH AFRICA
Office of Inspector General



July 11, 2013

MEMORANDUM

TO:                  USAID/South Sudan Mission Director, William Brands

FROM:                Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of USAID/South Sudan’s Core Institutional Structures Project
                     (Report No. 4-668-13-008-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety (without the
attachments) in Appendix II.

The report includes seven recommendations to strengthen USAID/South Sudan’s oversight of
the Core Institutional Structures Project. We acknowledge management decisions on all seven
recommendations and final action on Recommendations 1, 5, and 6. Accordingly, these
recommendations are closed on report issuance. Please provide the necessary documentation
to the Office of Audit Performance and Compliance Division to achieve final action on
Recommendations 2, 3, 4, and 7.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     Project Increased the Capacity of the Government of South Sudan ...................................... 5

     Performance Monitoring Was Not Adequate for Interim Project ............................................. 6

     Billing Oversight Was Inadequate.......................................................................................... 7

     Interim Project Did Not Integrate Gender Considerations ...................................................... 9

Evaluation of Management Comments.................................................................................. 11

Appendix I—Scope and Methodology ................................................................................... 13

Appendix II—Management Comments .................................................................................. 15
SUMMARY OF RESULTS
On January 9, 2005, the Government of Sudan and the Sudanese People’s Liberation
Movement (SPLM)1 signed the Comprehensive Peace Agreement, which ended a civil war that
lasted decades and claimed millions of lives. The agreement established a Government of
South Sudan as a subnational government. The agreement also called for a referendum in 2011
to allow the South Sudanese to decide whether they wanted to be an independent nation. In
January 2011, South Sudan voted overwhelmingly for independence from Sudan, and on July 9,
2011, South Sudan became an independent nation.

The agreement created the Government of South Sudan on paper, but the institution did not
have the buildings, personnel, or systems it needed to function. In addition, critical issues were
left unresolved related to areas on the border between northern and southern Sudan, known as
the Three Areas—Southern Kordofan State, Blue Nile State, and Abyei.

Four months before the agreement was signed, USAID contracted with BearingPoint to
implement the first stage of the Core Institutional Structures Project (Core). On August 22, 2006,
after the signing of the agreement, USAID awarded a $32.4 million task order to BearingPoint to
continue this project through September 30, 2010. This task order had three objectives:

1. Enable meaningful participation of the SPLM in the Government of National Unity.

2. Strengthen the institutional structures of a transparent and accountable Government of
   South Sudan and the institutional structure of the Bank of Southern Sudan.

3. Strengthen key ministries in the Three Areas.2

The project went through significant changes from 2009 to 2010. In May 2009, Deloitte
Consulting LLP (Deloitte) purchased the division of BearingPoint that managed the Core task
order. In June 2009, USAID reevaluated the strategy of the project and restructured it based on
where the Government of South Sudan needed to be by 2011, when South Sudan would decide
whether to become an independent nation. As part of this strategy reevaluation, USAID/South
Sudan commissioned four reports between December 2009 and August 2010 that analyzed,
evaluated, and assessed different aspects of Core. Consequently, Core replaced many of its
advisers, as well as the chief of party and deputy chief of party.

One of these reports was Core’s midterm evaluation, conducted by Management Systems
International in September 2009 and issued in January 2010. This evaluation found that the
Government of South Sudan, with assistance from BearingPoint/Deloitte, had made the notable
achievement of building both the physical and procedural components of a government from
scratch. In addition, the evaluation found that Deloitte’s monitoring and evaluation system did
not capture the kind of information on which to base any conclusions. To address this

1
   SPLM was founded as the political wing of the Sudanese People’s Liberation Army, which began
fighting for South Sudanese independence in 1983 and is currently the ruling party in South Sudan.
2
  The Three Areas were Nuba Mountains, Southern Blue Nile, and Abyei, but they were transformed into
the two Sudanese states of Southern Kordofan and Blue Nile. The Comprehensive Peace Agreement
made protocols specific to these states.


                                                                                                  1
weakness, the evaluation recommended that Deloitte revise its performance management plan
(PMP) to include a causal framework and more outcome and impact indicators.

Through a number of modifications, USAID extended Core until March 31, 2012, and increased
the cost ceiling to $72.9 million. Notably, a modification signed September 30, 2011, eliminated
Objectives 1 and 3 and made the subobjectives under Objective 2 the objectives of the project.
The objectives from October 1, 2011, through audit work in January 2013 were as follows:

1. Improve the decision-making process and communication capacity within the Government of
   South Sudan.

2. Implement sound public financial management policies, legislation, and processes in a
   transparent and accountable manner.

3. Strengthen the policies and capacity of the Bank of South Sudan.

4. Develop a legal drafting process and a legal and regulatory framework for the government
   that facilitate good governance and democratic processes.

5. Build the government’s capacity to manage its oil resources.

USAID/South Sudan began the procurement process to identify successor projects in June
2010, and as late as November 2010 the mission thought these procurements would be
complete by July 2011. USAID extended Core because of delays procuring the successor
projects; however, procurements were still ongoing as Core approached its final extension date
of March 31, 2012. Therefore, to preserve continuity, USAID issued a new task order, the
Economic Growth Project in South Sudan (EGPSS), on February 15, 2012. EGPSS was
scheduled to cost $6.3 million and end 6 months later, just long enough to complete these
procurements. However, because successor project procurements were further delayed, USAID
extended EGPSS to June 30, 2013, and increased the cost ceiling to $19.8 million.

As of January 2013, USAID had awarded a contract to Deloitte for a follow-on project to the
democracy and governance component of Core, including work with the Ministry of Justice,
Ministry of Cabinet Affairs, and Office of the President—Objectives 1 and 4 above. However,
USAID was still in the process of awarding a follow-on contract for the economic growth
component of Core.

This period of transition presented an opportunity to review Core’s progress. Accordingly, the
Regional Inspector General/Pretoria conducted this audit to determine whether USAID/South
Sudan’s Core Institutional Structures Project increased the capacity of the Government of South
Sudan to govern effectively, inclusively, transparently, and accountably.

Performance report narratives, visits to offices within the Government of South Sudan, and
auditor discussions with officials from USAID, the Government of South Sudan, and Core
indicated that Core increased the capacity of the Government of South Sudan to govern
effectively, inclusively, transparently, and accountably (page 5). Although external factors limited
the project’s progress, USAID and Deloitte were aware of these factors and worked to
overcome them.

Although some impediments that limited the project’s impact were outside USAID’s and
Deloitte’s control, others were within their control:

                                                                                                  2
   Procurement delays diminished the impact of Core. Although more than 500 days had
   passed since the request for proposals was issued, USAID had not awarded the successor
   project to Core. Because this issue relates to procurement-sensitive information, it is not
   included in this report.

   Performance monitoring was not adequate for EGPSS (page 6). Although the project task
   order required Deloitte to maintain performance indicators that allow USAID to measure the
   project’s progress over time, Deloitte neglected reporting on some of them and modified
   targets for those that it did report on. Consequently, reported results’ contribution to the
   project’s stated objectives was unclear. The monitoring problems occurred primarily
   because the mission had not completed its monitoring and evaluation mission order. The
   lack of consistent performance reporting made it difficult to objectively assess the impact of
   these projects.

   Billing oversight was inadequate (page 7). Costs are only allowable if they are reasonable
   and comply with contract terms. However, USAID paid $601,990 in excess personnel costs,
   and $3,000 in fuel costs was wasted because of inadequate internal controls during 2012.
   The contracting officer’s representative said that overbilling went unnoticed because she
   only reviewed billing to see if it generally looked right and experienced financial analysts
   were in short supply to assist her in verifying the costs billed to USAID.

   EGPSS did not integrate gender considerations (page 9). Although the task order required
   it, Deloitte did not integrate gender into Core because the mission lacked clear guidance on
   how to do that in South Sudan. Empowering women would further several objectives of
   Core. Therefore, the impact of the project was limited by the failure to properly integrate
   gender into project activities.

To resolve these problems, the audit recommends that USAID/South Sudan:

1. Finalize a monitoring and evaluation mission order to assist the program office and technical
   team in collecting and analyzing performance indicator data that supports decision making
   on the project’s operations and effectiveness (page 7).

2. Conduct an Agency-contracted audit to determine whether billing under Core between 2010
   and the end of the project complied with contract requirements (page 9).

3. Implement a written policy to periodically review Deloitte’s administrative controls and
   support for expenses charged to USAID (page 9).

4. Determine the allowability of $604,990 in questioned costs ($601,990 ineligible and $3,000
   unsupported) and recover from Deloitte any amounts determined to be unallowable
   (page 9).

5. Issue a mission order addressing gender integration (page 10).

6. Appoint a mission gender adviser to assist mission staff in implementing the Gender
   Equality and Female Empowerment Policy (page 10).

7. Implement written plans to integrate gender into each of Core’s successor projects
   (page 10).

                                                                                               3
Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of them is on
page 11.




                                                                                        4
AUDIT FINDINGS
Project Increased the Capacity of
the Government of South Sudan
Performance report narratives, visits to offices within the Government of South Sudan, and
auditor discussions with officials from USAID, the Government of South Sudan, and Core
indicated that Core had increased the capacity of the Government of South Sudan to govern
effectively, inclusively, transparently, and accountably. Notable accomplishments included:

   Setting up the South Sudan Ministry of Finance and Economic Planning’s financial
   management information system, which allows the Government of South Sudan to manage
   budget, payments, and financial reporting.

   Helping the Bank of South Sudan acquire an accounting and payment system, necessary
   for it to function as a central bank, prior to South Sudanese independence.

   Assisting the Ministry of Petroleum and Mining in selling $3.3 billion of oil, the Government
   of South Sudan’s first independent sales.

   Aiding the Ministry of Cabinet Affairs in reducing from 21 days to 2 days the time needed to
   distribute decisions and resolutions from meetings of the Council of Ministers.

For the entire period Core was operating in South Sudan, the country was in a state of flux—first
war; then a subnational, autonomous government; and finally independence. The project started
from scratch, but the Government of South Sudan built buildings, hired employees, and
established operating procedures. Although progress was made, numerous impediments limited
the project’s accomplishments. Notably, civil servants in South Sudan were often illiterate and
innumerate, and because positions were allocated not based on merit, but according to ethnic
group, many staff lacked the technical skills needed for their positions. The Core midterm
evaluation report noted that this lack of skills led ministry officials to complain that ten people
were doing 80 percent of the work while the rest were just “drinking tea.” In addition, although
Deloitte advisers were able to help South Sudan market their oil after independence, conflict
with Sudan over these oil exports—the only exports from South Sudan—led to a cessation of oil
through the pipeline in January 2012, eliminating 98 percent of the Government of South
Sudan’s revenues.

USAID and Deloitte were aware of external factors limiting the project’s progress and worked to
overcome them. For example, the project trained civil servants in English to improve literacy and
worked with ministries to distribute the workload by defining position descriptions and
formalizing organizational structures. Deloitte was also assisting the Ministry of Petroleum and
Mining with a feasibility study for a pipeline that does not go through Sudan. Advisers also
helped government officials implement austerity measures to keep key functions operational as
long as possible without oil revenues.




                                                                                                 5
Performance Monitoring Was Not
Adequate for Interim Project
According to USAID’s Automated Directives System (ADS) 203.3.2, performance monitoring is
a continuous process of gathering performance indicator data to determine “whether desired
results are being achieved and whether implementation is on track” for a project or activity.
Performance monitoring continues throughout an activity or project. Further, ADS 203.3.2
states, “Performance indicators are the basis for observing progress” and comparing actual
results with expected results. Monitoring thus helps determine how the project is progressing.

In line with these ADS requirements, the EGPSS task order required Deloitte to prepare a PMP
“capable of tracking, documenting, monitoring, and reporting . . . the targets/indicators for all
Project components.” The task order further stipulated that the PMP must allow USAID to
measure the project’s progress over time. Finally, the task order noted, “USAID will evaluate the
Contractor’s progress and success based on whether or not the tangible results and
development impact envisaged by the Project are achieved.”

Despite these requirements, Deloitte had not prepared any reporting consistent with its PMP
under EGPSS. The audit disclosed two kinds of inconsistencies:

   The project’s PMP included an extensive set of indicators, but in the only report prepared
   under EGPSS, Deloitte included only a fraction of them in some sections. The section for
   Objective 3 in the January 2013 report included 7 of the 14 PMP indicators and presented 5
   indicators that were not in the PMP updated May 2012. The section for Objective 5 included
   only 6 of 17 indicators from the PMP.

   Deloitte significantly lowered and raised targets. For example, the PMP set a target of
   90 bills passed by the National Legislature by December 31, 2012, while the January 2013
   report indicated the target was only 60 bills. This lowering caused the actual result to fall
   short of the target by only 1 bill instead of 31. Yet on another measure, tax revenue, Deloitte
   raised the target from 40 million South Sudanese pounds (about $13.5 million at the official
   exchange rate) to 120 million South Sudanese pounds (about $40.5 million at the official
   exchange rate). This change brought the target closer to—yet still below—the reported
   actual figure of 162 million South Sudanese Pounds (about $54.7 million at the official
   exchange rate).

The monitoring problems occurred primarily because of the project’s short duration and a lack of
monitoring and evaluation procedures at USAID/South Sudan. Because USAID/South Sudan
envisaged EGPSS lasting only 6 months, the task order did not require periodic reports to
include quantitative results. When it extended the task order, the mission did not add these
reporting requirements. In addition, the mission had not issued its monitoring and evaluation
mission order—a key guidance tool. If the mission had had a monitoring and evaluation mission
order, mission officials might have included performance reporting as a requirement under the
task order. This key performance monitoring tool was absent because the mission was not
established as an independent office until July 2011. As an independent mission, USAID/South
Sudan was in the process of implementing new mission orders, but these were in draft as of
January 2013.

Although the contracting officer’s representatives interacted with Deloitte almost every day,
without regularly monitoring consistent indicators, they could not objectively assess the impact

                                                                                                6
of these projects. Given that the mission is beginning to implement the successor projects to
Core, it is an ideal time for USAID/South Sudan to improve its policies and procedures for
monitoring and evaluation. Therefore, the audit makes the following recommendation.

    Recommendation 1. We recommend that USAID/South Sudan finalize a monitoring
    and evaluation mission order to assist the program office and technical team in collecting
    and analyzing performance indicator data that supports decision making on the project’s
    operations and effectiveness.

Billing Oversight Was Inadequate
Federal Acquisition Regulation 31.201-2 states that costs are allowable only if they are
reasonable and comply with contract terms. Additionally, the regulation states that a contracting
officer can disallow costs if the contractor does not have documentation to demonstrate that
they are reasonable and comply with contract terms. ADS 630.2 states that the contracting
officer’s representative was responsible for administratively approving all vouchers submitted by
Deloitte, although 630.3.2.1 explains that final validation of pricing is the responsibility of the
mission’s financial management office.

Despite these requirements, the audit found a number of billed costs that were unreasonable or
did not comply with contract terms, as detailed below.

Deloitte Billed at Higher-Than-Approved Rates. The Core and EGPSS awards stipulated
fixed rates that should be billed for American advisers and authorized negotiated rates for non-
American advisers. Although rates for non-American advisers are variable, the contracting
officer must approve the rates in advance;3 approval allows the mission to exercise control over
which people are selected and at what rate. Despite this requirement, every voucher submitted
to USAID from January to June 2012 contained some inflated rates: Deloitte charged USAID at
rates above those approved by the USAID contracting officer for some employees on each
voucher. Deloitte officials said they had used the wrong methodology in calculating the rates for
the EGPSS task order because Deloitte had to rush to meet USAID’s deadline. To address
these mistakes, Deloitte requested on April 24, 2012, that USAID approve the revised
calculation, but USAID did not do so until June 14, 2012. Overcharges based on the
unapproved rates between start-up and mid-June amounted to $234,003 in 2012.

Non-American Advisers Cost USAID More Than American Advisers. The contracts with
Deloitte contained approved rates for Deloitte advisers, both American and non-American.
Notably, the fixed rates for American advisers included fringe benefits, while USAID reimbursed
Deloitte separately for non-American advisers’ fringe benefit expenses. Therefore, the total rate
charged to USAID for non-American advisers is the negotiated rate plus the fringe benefit
expenses. These contracts do not allow Deloitte to change the American adviser rates, but rates
for non-American advisers vary based on the actual salary of the adviser. The contracts
explicitly state that variable rates are only applicable to non-American advisers. Federal
Acquisition Regulation 31.201-3 notes: “A cost is reasonable if, in its nature and amount, it does
not exceed that which would be incurred by a prudent person in the conduct of competitive
business.” However, Deloitte billed USAID $329,530 extra in 2012 to employ non-Americans

3
  These requirements are included in the Core indefinite quantity contract, Section F, paragraph b, and in
the EGPSS task order, Section F.3(e).


                                                                                                        7
instead of Americans. This excess charged for non-Americans is unreasonable; although they
were qualified for the positions, a prudent person would not have paid extra to hire a non-
American instead of an American because there was no programmatic benefit to doing so. In
addition, USAID paid $38,457 extra because Deloitte billed a U.S. citizen as a non-American,
although doing so is prohibited by the contract.

Deloitte Did Not Safeguard Fuel. The U.S. Government Accountability Office’s Standards for
Internal Control in the Federal Government states that one of the purposes of internal control is
to safeguard assets. Deloitte used over 2,800 liters of fuel, worth about $8,000, between
December 8 and December 15, 2012. However, according to vehicle logs and typical generator
use, the use of at least 1,000 liters of this fuel, worth over $3,000, was not reasonably justified
by Deloitte’s documentation. The fuel was stored onsite at the Deloitte offices in unsecured 200-
liter drums. Although walls surrounded the office compound and a guard was always onsite, no
controls existed to protect fuel or track its use. When the guard was alone in the compound,
Deloitte had no way to prevent that guard from stealing fuel from the drums, and no way to
quickly detect theft. Additionally, no internal controls prevented drivers from siphoning fuel from
the vehicles. As of the audit, no one had alleged theft, but internal controls were insufficient to
detect it if it had occurred. Controls were also insufficient to demonstrate that fuel was used for
project purposes. Despite these weaknesses, USAID paid almost $300,000 in fuel for
generators and vehicles for Deloitte in 2012.

These administrative issues arose because the contracting officer’s representative said she only
reviewed billing to see if it generally looked right and experienced financial analysts were in
short supply to assist her in verifying the costs billed to USAID. The mission was in the process
of hiring a third financial analyst, and the other two had been on the job less than a year.
Experienced financial analysts would help the representatives with their oversight
responsibilities. A financial review conducted by the mission in 2010 resulted in about
$1.2 million in questioned costs related to the hiring and rates of employees that had not been
approved by the contracting officer, duplicate allowances paid to advisers, and arithmetic errors.
Since that review was completed, the mission has not disallowed any charges claimed by
Deloitte even though problems have persisted.

Related to the internal controls over fuel, the chief of party said that project staff wanted to
improve the controls, but they had anticipated leaving their offices at the end of the project.
Because they anticipated a completion date of September 30, 2010, weaknesses may have
persisted for years.

                                  Questioned Costs (audited)

                              Type                                             Amount ($)
      Ineligible Costs
              Unapproved Rates                                  234,003
              Non-American Premium                              329,530
              American Charged as Non-American                   38,457          601,990
      Unsupported Costs
              Fuel                                                                  3,000
      Total                                                                      604,990




                                                                                                 8
As shown in the table, poor oversight of Deloitte’s billing and internal controls led to $604,990 in
questioned costs. A prior financial review helped the mission identify about $1.2 million in
questioned costs and internal control weaknesses. A detailed audit of Deloitte’s financial
management would better identify internal control weaknesses and potential questioned costs.
In addition, future periodic financial reviews could help USAID monitor billing for the successor
projects to Core to address questionable billing practices promptly. Accordingly, this audit
makes the following recommendations.

    Recommendation 2. We recommend that USAID/South Sudan conduct an Agency-
    contracted audit to determine whether billing under the Core Institutional Structures
    Project between 2010 and the end of the project complied with contract requirements.

    Recommendation 3. We recommend that USAID/South Sudan implement a written
    policy to periodically review Deloitte’s administrative controls and support for expenses
    charged to USAID.

    Recommendation 4. We recommend that USAID/South Sudan determine the
    allowability of $604,990 in questioned costs ($601,990 ineligible and $3,000
    unsupported) and recover from Deloitte Consulting any amounts determined to be
    unallowable.

Interim Project Did Not Integrate
Gender Considerations
Although ADS 2014 has required missions to address gender issues during project planning
since 2009, USAID’s Gender Equality and Female Empowerment Policy, published in March
2012, requires every mission to adopt and maintain a mission order that, among other things,
addresses gender equality and empowering women in USAID programs. This includes
integrating the mission’s gender policy throughout the program cycle, making sure that
operating plans and performance plans and reports incorporate gender considerations. Further,
the policy requires missions to appoint a mission gender adviser to assist mission staff in
implementing it.

Although it was signed in February 2012, just before the policy took effect, USAID/South
Sudan’s EGPSS task order stated that gender issues must be taken into account at all levels of
the project so that reforms—including political participation, access to finance, and legal
protection—and their consequences affect men and women equitably. Moreover, the task order
stated that the project should “consciously address the need for gender balance in areas such
as advocacy, training, economic development, and other areas of the Project as appropriate.”

Despite the requirements in the EGPSS task order, Deloitte did not integrate gender into Core.
While the project reported some outputs by gender—for example, Deloitte reported training 225
men and 33 women from October 1, to December 31, 2013, on budget execution—performance
reporting did not include any indicators to track the impact of project activities on gender issues.
Additionally, a mission official said that the mission and the contractor tried to ensure that
activities such as training classes reflected the percentages of men and women who worked at

4
 As of July 2, 2013, this requirement is in ADS 201.3.15.3. Previously, this requirement was included in
ADS 201.3.9.3.


                                                                                                      9
the South Sudan institutions or departments that were receiving the training. However, this
strategy ignored gender discrepancies within the institutions and did not redress the gender
imbalance, as expected by the task order.

Deloitte had not adequately integrated gender because, given the short time frame,
implementing a formal strategy to integrate gender would have been difficult. The prior task
order included far fewer specific requirements for gender integration and ended before the
Agency’s March 2012 gender policy was effective. When EGPSS was signed in February 2012,
it included more specific requirements, but USAID envisaged EGPSS lasting only 6 months.
Consequently, Deloitte did not allocate substantial resources to addressing these requirements.

In addition, the project did not properly integrate gender because the mission lacked clear
guidance on how gender should be integrated in South Sudan. USAID/South Sudan did not
have a mission order or a mission gender adviser to guide project teams on issues related to
gender integration.

USAID’s Policy Framework 2011-2015 states, “Societies that empower women experience
faster economic growth [and] manage public resources more effectively.” Empowering women
would advance several of Core’s objectives. Thus, the impact of the project was limited by the
failure to integrate gender into project activities.

As of January 2013, the mission had awarded one successor project to Core and was in the
process of awarding another, making this a pivotal time to integrate gender
considerations. Accordingly, the audit makes the following recommendations.

   Recommendation 5. We recommend that USAID/South Sudan issue a mission order
   addressing gender integration.

   Recommendation 6. We recommend that USAID/South Sudan appoint a mission
   gender adviser to assist mission staff in implementing the Gender Equality and Female
   Empowerment Policy.

   Recommendation 7. We recommend that USAID/South Sudan implement written plans
   to integrate gender into each of the successor projects to the Core Institutional
   Structures Project.




                                                                                            10
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/South Sudan agreed with and made management
decisions on all seven recommendations and took final action on three. Recommendations 2, 3,
4, and 7 remain open pending the completion of the planned Agency-contracted audit, reporting
of limited financial reviews, collection of sustained questioned costs, and the completion of the
work plan for one of the successor projects. Our detailed evaluation of management comments
follows.

Recommendation 1. USAID/South Sudan agreed to issue a monitoring and evaluation mission
order to assist the program office and technical team in collecting and analyzing performance
indicator data that supports decision making on the project’s operations and effectiveness. The
mission order was issued on April 29, 2013. As a result, a management decision has been
reached and final action taken.

Recommendation 2. USAID/South Sudan agreed to conduct an Agency-contracted audit to
determine whether billing under Core between 2010 and the end of the project complied with
contract requirements. The mission prepared the statement of work and issued a solicitation on
June 12, 2013. The target date for final action is April 30, 2014. As a result, a management
decision has been reached.

Recommendation 3. USAID/South Sudan agreed to implement a written policy to periodically
review Deloitte’s administrative controls and support for expenses charged to USAID. The
mission established a policy to conduct limited financial reviews that focus on internal controls.
Mission officials scheduled reviews for both successor projects, with reports expected by
January 31, 2014. As a result, a management decision has been reached.

Recommendation 4. USAID/South Sudan agreed to determine the allowability of $604,990 in
questioned costs ($601,990 ineligible and $3,000 unsupported) and recover from Deloitte any
amounts determined to be unallowable. The supervisory contracting officer sustained
$153,847.77 of the questioned costs ($150,847.77 ineligible and $3,000 unsupported) and
issued a bill of collection for this amount on June 21, 2013, with an expected collection date of
September 30, 2013. As a result, a management decision has been reached.

Recommendation 5. USAID/South Sudan agreed to implement a mission order addressing
gender integration. The mission issued this mission order on March 14, 2013. As a result, a
management decision has been reached and final action taken.

Recommendation 6. USAID/South Sudan agreed to appoint a mission gender adviser to assist
mission staff in implementing the Gender Equality and Female Empowerment Policy. The
mission’s appointment of a gender adviser was reflected in the point of contact list updated
June 24, 2013. As a result, a management decision has been reached and final action taken.

Recommendation 7. USAID/South Sudan agreed to implement written plans to integrate
gender into each of the successor projects to Core. One of the projects included plans to
integrate gender in its work plan, which was approved on May 21, 2013. The other project had


                                                                                               11
not yet finalized its work plan. The target date for final action is August 31, 2013. As a result, a
management decision has been reached.




                                                                                                 12
                                                                                         Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objectives. We believe that the evidence
obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/South Sudan’s Core Institutional
Structures Project increased the capacity of the Government of South Sudan to govern
effectively, inclusively, transparently, and accountably. We audited project information from the
award of the Core Institutional Structures Project to the previous contractor, BearingPoint, in
2006, but we limited our review of performance reporting and specific activities performed by the
current contractor, Deloitte Consulting—which took over from BearingPoint in 2009—to fiscal
years 2012 and 2013.

The audit team performed this audit at USAID/South Sudan; Deloitte offices; and South
Sudanese ministries in Juba, South Sudan. We conducted audit fieldwork from January 14 to
January 31, 2013. USAID fully obligated $72.9 million under the original Core task order for the
period August 22, 2006, to March 31, 2012. Under EGPSS, USAID fully obligated $19.8 million
for the period February 15, 2012, to June 30, 2013. In total, USAID had obligated $92.7 million
toward Core as of the beginning of audit fieldwork on January 14, 2013. We reviewed project
activities for all $92.7 million obligated for Core; invoices totaling almost $16.3 million; and data
reporting for the EGPSS contract, to which USAID had obligated $19.8 million and reimbursed
Deloitte $13.6 million for the period through December 31, 2012.

In planning and performing the audit, the audit team assessed management controls related to
USAID/South Sudan’s reporting processes and controls that were significant in the context of
the audit objective. The following is a list of the significant controls assessed.

   We reviewed the mission’s annual certification required by the Federal Managers’ Financial
   Integrity Act of 1982 for internal control weaknesses affecting the audit. The weaknesses
   noted in the certification included insufficient personal property management, staff training,
   and program monitoring. We incorporated these risks into the audit program as applicable.

   We reviewed the mission’s data quality assessments for indicators USAID used for external
   reporting, but these indicators were of limited use for evaluating the project, as discussed on
   page 6.

   In addition to indicators reported in the data quality assessments, we reviewed indicators
   reported by Deloitte that USAID did not report externally and that, therefore, did not require
   data quality assessments.

   We reviewed several evaluations issued in 2009 and 2010 that assisted us in determining
   the status of and future plans for the project.



                                                                                                  13
                                                                                      Appendix I


Evidence used included interviews with officials from USAID/South Sudan, Deloitte, and South
Sudanese ministries, as well as mission and contractor reports, such as PMPs, project
implementation reports, and work plans.

Methodology
To determine whether USAID South Sudan’s Core was increasing the capacity of the
Government of South Sudan to govern effectively, inclusively, transparently, and accountably,
the audit team reviewed evaluation reports, periodic performance reports, work plans, project
implementation reports, and PMPs. We examined and assessed indicators for the objectives
and subobjectives reported in the PMPs, although performance indicator reporting was
unavailable until the final week of audit fieldwork, and reporting was inconsistent with the PMP
prepared in May 2012. These weaknesses limited the usefulness of Deloitte’s performance
reporting.

The audit assessed the project performance based on qualitative information since timely,
reliable performance reporting was not available. Given limited usefulness of the project’s
performance indicators, we did not have a materiality threshold for the audit, nor did sampling
support our conclusions.

In answering the audit objective, we interviewed key USAID/South Sudan personnel; Deloitte
staff and advisers in South Sudan; support staff from offices in Nairobi, Atlanta, and
Washington; officials from the Ministries of Finance and Economic Planning, Petroleum and
Mining, Cabinet Affairs, and Justice; and officials from the Bank of South Sudan.

Utilizing reported findings from a project financial review completed in 2010, we reviewed
Deloitte's operations to determine whether it had effective internal controls over voucher and
payroll processing, asset management, and approvals for pay grades, per diem, and
allowances. Our review included examining support for these expenses reimbursed by USAID.

We also assessed crosscutting areas such as gender integration and the risk of trafficking in
persons. To determine the impact that the project’s activities have had on concerns identified in
the mission’s gender assessment, we interviewed mission and contractor officials and examined
reported gender indicator data. Although South Sudan has a very high risk of trafficking in
persons, given the scope of work for the project, we assessed the overall risk of the project
being involved in trafficking as low.




                                                                                              14
                                                                                     Appendix II



MANAGEMENT COMMENTS
                                                                                   June 24, 2013

MEMORANDUM

TO:           Robert W. Mason
              Regional Inspector General/Pretoria

FROM:         William R. Brands /s/
              Mission Director, USAID/South Sudan

SUBJECT:      Audit of USAID/South Sudan’s Core Institutional Structures Project
              (Report No. 4-668-13-XXX-P)

This memorandum conveys USAID/South Sudan’s management response to the above
referenced audit report of the Core Institutional Structures Project (CISP) dated May 24, 2013.
The Mission thanks the audit team for its professionalism and concurs with the seven
recommendations. The Mission’s responses to the RIG’s specific audit recommendations are
detailed below.

Recommendation 1. We recommend that USAID/South Sudan finalize a monitoring and
evaluation mission order to assist the program office and technical team to properly collect and
analyze data for its performance indicators in order to assist with making appropriate decisions
regarding the project’s operations and effectiveness.

USAID/South Sudan agrees with this recommendation. The Mission issued Mission Order 203-
2 Performance Monitoring (Attachment 1) on April 29, 2013. On May 3, 2013, the Mission
awarded the Monitoring and Evaluation Support Project which will complement the Mission's
monitoring activities. This includes technical support for site visits as well as Agency-mandated
high-quality evaluations in alignment with the Evaluation Policy. We believe that the above
addresses Recommendation 1 and request its closure.

Recommendation 2. We recommend that USAID/South Sudan conduct an agency contracted
audit to determine whether billing under the Core Institutional Structures Project was in
compliance with contract requirements between 2010 and the end of the project.

USAID/South Sudan agrees with this recommendation. The Mission drafted a Statement of
Work (SOW) for a financial audit of USAID resources incurred in South Sudan managed by
Deloitte under the CISP program (GEG-I-00-04-00004-00, Task Order 8) from January 2010 to
March 2012 and the Economic Governance Task Order (AID-668-TO-12-00005) from February
2012 to December 2012. The Regional Inspector General’s Office in Pretoria (RIG/Pretoria)
approved the SOW on May 20, 2013. The solicitation was issued on June 12, 2013. The
purchase order is expected to be issued by July 30, 2013. The audit report is expected to be
issued by March 31, 2014. Final action is expected by April 30, 2014.

                                                                                              15
                                                                                     Appendix II


Recommendation 3. We recommend that USAID/South Sudan implement a written policy to
periodically review Deloitte’s administrative controls and support for its prior expenses charged
to USAID.

USAID/South Sudan agrees with this recommendation. As noted by the report, the Financial
Analysis unit of the Office of Financial Management recently hired a third Financial Analyst to
join the other two Financial Analysts who recently completed their first year with USAID/South
Sudan. In April 2013, USAID/South Sudan hired an experienced Third Country National
Personal Services Contractor as the Financial Analyst Trainer. A major focus area is training the
Financial Analysts and Procurement Management Specialists to conduct limited financial
reviews that will focus on an organization’s internal controls and how they can be strengthened
in addition to compliance with agreement terms (Attachment 2). The successor projects to the
Core Institutional Structures Project are the Project on Good Governance in the Republic of
South Sudan (PROGRESS, AID-668-C-13-00001) and Strengthening Core Economic
Governance Institutions II (CORE II, AID-668-C-13-00005). The team plans to conduct a
limited financial review of PROGRESS in July 2013 and of CORE II in October 2013. Reports
will be issued and the team will track implementation of any findings with the project teams.
Final action is expected by January 31, 2014.

Recommendation 4. We recommend that USAID/South Sudan determine the allowability of
$604,990 in questioned costs ($601,990 ineligible and $3,000 unsupported) and recover from
Deloitte Consulting any amounts determined to be unallowable.

The questioned costs related to billing of personnel and fuel costs. The audit team found that
some of the non-American advisors had been billed and paid at higher rates than the approved
rates, non-American advisors had cost USAID more than American advisors, a dual nationality
advisor had been billed as a non-American instead of as an American, and Deloitte had not
safeguarded fuel.

USAID/South Sudan’s review of the questioned costs is summarized in Attachment 3. Using
this information, the Supervisory Contracting Officer determined that the higher rates should be
considered approved as of Deloitte’s request on April 24, 2012, the fringe benefits paid to non-
American advisors were allowable, the dual nationality American advisor should have been
billed as an American, and internal controls for fuel usage were insufficient (Attachment 4). The
determination is summarized below:

                                 Questioned
                                 Cost as per
Type of Questioned Cost          Draft Audit ($)    Disallowed ($)    Allowed ($)
Ineligible Costs:
  Unapproved Rates             234,003.00           111,323.36        122,679.64
  Non-American Premium         329,530.00                             329,530.00
  American Incorrectly Charged 38,457.00             39,524.41
Unsupported Costs:
  Fuel                           3,000.00             3,000.00
                               604,990.00           153,847.77        452,209.64


                                                                                              16
                                                                                      Appendix II



The determination was sent to Deloitte on June 21, 2013. The Bills for Collection (Attachment
5) were generated in Phoenix on June 21, 2013 and forwarded to Deloitte on June 22, 2013.
Final action is expected by September 30, 2013.

Recommendation 5. We recommend that USAID/South Sudan implement a mission order
addressing gender integration.

USAID/South Sudan agrees with the recommendation. The Mission has documented the
procedures and is currently implementing them as outlined below. The Mission issued Mission
Order 200-1 Gender Integration (Attachment 6) on March 14, 2013. The mission order outlines
how gender equality and female empowerment are advanced throughout the program cycle
which includes strategic planning, reporting, design, and assessments. The Mission has a gender
focal point in the Program Office who was announced in a Mission Notice on June 17, 2013.
The Mission’s draft Revised Transition Strategy covering the period from 2013 to 2016
incorporates gender across all four development objectives. The strategy is expected to be
finalized later in 2013. The recent portfolio review conducted in May 2013 discussed gender
issues in each of the sectors. The Mission’s new Monitoring and Evaluation support contract
will conduct a gender analysis, updating the most recent analysis from 2010, and hire a Gender
Advisor who will further assist in mainstreaming gender in programming. We believe that the
above actions fully address Recommendation 5 and request its closure.

Recommendation 6. We recommend that USAID/South Sudan appoint a mission gender advisor
to assist mission staff in implementing the Gender Equality and Female Empowerment Policy.

USAID/South Sudan agrees with the recommendation. On June 24, 2013, the Mission’s Point of
Contact list which included naming the gender advisor was updated and issued (Attachment 7).
We believe that the above addresses Recommendation 6 and request its closure.

Recommendation 7. We recommend that USAID/South Sudan implement written plans to
integrate gender into each of the successor projects to the Core Institutional Structures Project.

USAID/South Sudan agrees with the recommendation. PROGRESS outlined how the program
will integrate gender considerations as well as many of the challenges faced in its work plan
(Attachment 8) that was approved on May 21, 2013. CORE II is currently finalizing its work
plan with the Contracting Officer’s Representative with approval expected by July 31, 2013.
Final action is expected by August 31, 2013.

USAID/South Sudan requests closure of Recommendations 1, 5, and 6 and RIG/Pretoria’s
concurrence that management decisions have been reached on Recommendations 2, 3, 4, and 7.
We look forward to strengthening the successor projects to the Core Institutional Support Project
through the implementation of the audit’s recommendations.




                                                                                               17
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
